                           Closeout for MOO080031


   In August, 2000, the complainant1 wrote to u s to point out that a recent
paper in a scientific journal, whose authors2 claimed N S F support, described a
phenomenon that was identical to his previously published research.3 The
complainant believed the authors7experiments were essentially the same as
his, acknowledged the authors cited his papers, but thought the reference to
his papers was not as forthright and significant as it should be. The
complainant also provided a copy of his letter to the journal editor that raised
more specific questions about the publication process.
    Because of the technical nature of the allegation, we asked an engineer with
expertise in the field (a)for an evaluation of the similarity of the two research
projects and (b) if the authors7reference to the complainant's papers was           .*
reflective of its relevance to the complainant's research. The engineer agreed      ;-4


the two research projects were similar. However, the engineer noted that the
authors did not reproduce the complainant's research. Because of this, the          1;
engineer thought the authors7reference to the complainant's papers was
associated with a serious comment not made in passing; rather it was a polite
way to indicate a potential problem. He thought the authors' paper took a
more rigorous approach to the topic, and it was now u p to the scientific
community to either verify or reject either or both.
   We agree with the engineer's reasoning that !he authors7citation to the
complainant's papers is sufficient. This inquiry is closed and no further action
will be taken on this case.
cc: Investigation, IG




    (footnote redacted).
    (footnote redacted).
    (footnote redacted).

                                    Page 1 of 1
